                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00308-105




   Combined Assessment Program 

            Review of the 

  Overton Brooks VA Medical Center 

        Shreveport, Louisiana 





March 31, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



                                              Glossary
                 CAP            Combined Assessment Program
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Overton Brooks VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 9

  Coordination of Care ............................................................................................... 10

  Nurse Staffing ......................................................................................................... 11

  Pressure Ulcer Prevention and Management ......................................................... 12


Appendixes
  A. Facility Profile ....................................................................................................      14

  B. Strategic Analytics for Improvement and Learning ............................................                              15

  C. VISN Director Comments ..................................................................................                  18

  D. Interim Facility Director Comments ...................................................................                     19

  E. OIG Contact and Staff Acknowledgments .........................................................                            25

  F. Report Distribution .............................................................................................          26

  G. Endnotes ...........................................................................................................       27





VA OIG Office of Healthcare Inspections
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
January 27, 2014.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

 Medication Management

 Coordination of Care

Recommendations: We made recommendations in the following four activities:
Quality Management: Reassess observation criteria and utilization when conversions
from observation bed status to acute admissions are over 30 percent. Perform
continuing stay reviews on at least 75 percent of patients in acute beds. Include a
clinical representative from Surgery Service on the Blood Utilization Review Committee.
Ensure that corrective actions are initiated and/or consistently followed to resolution
when data analyses indicated problems or opportunities for improvement in the
Performance Improvement, Medical Executive, and Executive Safety Committees.

Environment of Care: Ensure patient care areas and restrooms are clean. Repair holes
in the walls, and monitor ongoing maintenance. Ensure all locked mental health unit
staff and occasional locked mental health unit workers receive training on identifying
and correcting environmental hazards, proper use of the Mental Health Environment of
Care Checklist, and VA’s National Center for Patient Safety study of suicide on
psychiatric units.

Nurse Staffing: Include all required members on unit 6E’s and unit 9E’s unit-based
expert panels.

Pressure Ulcer Prevention and Management: Include data analysis in Interprofessional
Skin Integrity Committee minutes. Accurately document location, stage, and risk scale
score for all patients with pressure ulcers. Provide and document pressure ulcer
education for patients at risk for and with pressure ulcers and/or their caregivers.




VA OIG Office of Healthcare Inspections                                                           i
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Comments
The Veterans Integrated Service Network Director and Interim Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 18–24, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
January 24, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                          1
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Program Review of the Overton Brooks VA Medical Center, Shreveport, Louisiana,
Report No. 10-00048-118, March 29, 2010).

During this review, we presented crime awareness briefings for 253 employees.
These briefings covered procedures for reporting suspected criminal activity to the OIG
and included case-specific examples illustrating procurement fraud, conflicts of interest,
and bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
79 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                          2
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


NM             Areas Reviewed (continued)                                      Findings
 X     Observation bed use met selected                   Eleven months of data reviewed:
       requirements:                                       For January–November 2013, 41 percent of
        Local policy included necessary elements.           observation patients were converted to acute
        Data regarding appropriateness of                   admissions, and the facility had not
          observation bed usage was gathered.                reassessed observation criteria or utilization
        If conversions to acute admissions were             during that time.
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at      Eleven months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.         For all months, less than 75 percent of acute
                                                             inpatients were reviewed.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                       4
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


NM              Areas Reviewed (continued)                                 Findings
 X     The process to review blood/transfusions          Twelve months of Blood Utilization Review
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            There was no clinical representative from
          membership met at least quarterly to review      Surgery Service on the committee.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
 X     Overall, if significant issues were identified,    Corrective actions were not consistently
       actions were taken and evaluated for                initiated and/or followed to resolution in the
       effectiveness.                                      Performance Improvement Committee and
                                                           MEC.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that when conversions from
observation bed status to acute admissions are over 30 percent, observation criteria and
utilization are reassessed.

2. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of patients in acute beds.

3. We recommended that the Blood Utilization Review Committee include a clinical
representative from Surgery Service.

4. We recommended that processes be strengthened to ensure that corrective actions are
initiated and/or consistently followed to resolution when data analyses indicated problems or
opportunities for improvement in the Performance Improvement, Medical Executive, and
Executive Safety Committees.




VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the intensive care, medicine, surgery, and acute MH units; the emergency
department; primary care and specialty care clinics; and the general radiology and fluoroscopy
areas. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 30 employee training records (10 radiology employees, 11 acute MH
unit employees, 4 Multidisciplinary Safety Inspection Team members, and 5 occasional acute
MH unit employees). The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM           Areas Reviewed for General EOC                                 Findings
 X     EOC Committee minutes reflected sufficient        Seven months of Executive Safety Committee
       detail regarding identified deficiencies,         meeting minutes reviewed:
       corrective actions taken, and tracking of          Minutes did not reflect that corrective actions
       corrective actions to closure.                      were initiated when data analyses indicated
                                                           problems or opportunities for improvement.
                                                           (See recommendation 4 in QM.)
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.        Floors and baseboards in five of six patient
                                                           care areas were not clean.
                                                          Inpatient bathrooms on two of the three units
                                                           and public restrooms in three areas were not
                                                           clean.
                                                          Supply and linen closets on one unit had
                                                           multiple holes in the walls.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                      6
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


NM             Areas Reviewed for Radiology                                   Findings
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
 X     The facility complied with any additional            Floors/baseboards in the hallway and in the
       elements required by VHA, local policy, or            supply room containing contrast agents and
       other regulatory standards.                           the crash cart were not clean.
                                                            Walls in the supply room were in need of
                                                             repair.
              Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                    7
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


NM      Areas Reviewed for Acute MH (continued)                               Findings
 X     MH unit staff, Multidisciplinary Safety            Six of the locked MH unit staff and four of the
       Inspection Team members, and occasional             occasional locked MH unit workers had not
       unit workers received training on how to            completed training on how to identify and
       identify and correct environmental hazards,         correct environmental hazards, proper use of
       content and proper use of the MH EOC                the MH EOC Checklist, and VA’s National
       Checklist, and VA’s National Center for             Center for Patient Safety study of suicide on
       Patient Safety study of suicide on psychiatric      psychiatric units.
       units.
       The locked MH unit(s) was in compliance with
       MH EOC Checklist safety requirements or an
       abatement plan was in place.
 X     The facility complied with any additional          Floors in patient care and common areas
       elements required by VHA, local policy, or          were not clean.
       other regulatory standards.

Recommendations

5. We recommended that processes be strengthened to ensure that patient care areas and
restrooms are clean and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that holes in the walls are
repaired and that ongoing maintenance be monitored.

7. We recommended that processes be strengthened to ensure that all locked MH unit staff
and occasional locked MH unit workers receive training on how to identify and correct
environmental hazards, proper use of the MH EOC Checklist, and VA’s National Center for
Patient Safety study of suicide on psychiatric units and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      8
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 31 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 25 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  10
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on two inpatient units (acute medical/surgical and MH).5

We reviewed facility and unit-based expert panel documents and 22 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for two randomly selected units—acute medical/surgical unit 6E and MH unit 9E—for
50 randomly selected days between October 1, 2012, and September 30, 2013. The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
 X     The unit-based expert panels followed the          The unit-based expert panels did not include
       required processes and included the required        licensed practical nurses or nursing
       members.                                            assistants.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

8. We recommended that the annual staffing plan reassessment process ensures that unit
6E’s and unit 9E’s unit-based expert panels include all required members.




VA OIG Office of Healthcare Inspections                                                                  11
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 13 EHRs of patients with pressure ulcers (10 patients with
community-acquired pressure ulcers and 3 patients with pressure ulcers at the time of our onsite
visit), and 10 employee training records. Additionally, we inspected two patient rooms.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                     Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
 X     Pressure ulcer data was analyzed and              Minutes of Interprofessional Skin Integrity
       reported to facility executive leadership.        Committee for past 11 months reviewed:
                                                          Minutes did not reflect pressure ulcer data
                                                           analysis.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                 In 8 of the 13 EHRs, staff did not consistently
       documenting location, stage, risk scale score,      document the location, stage, and/or risk
       and date acquired.                                  scale score.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
 NA    Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  12
                                          CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


NM             Areas Reviewed (continued)                                     Findings
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For five of the applicable nine patients at risk
       development was provided to those at risk for       for and with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their               contain evidence that education was
       caregivers.                                         provided.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

9. We recommended that processes be strengthened to ensure that Interprofessional Skin
Integrity Committee minutes include data analysis.

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, and risk scale score for all patients with pressure ulcers
and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   13
                                        CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                              Appendix A


              Facility Profile (Shreveport/667) FY 2014 through
                                 February 2014a
Type of Organization                                                                      Secondary
Complexity Level                                                                          1c-High complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $273
Number of:
    Unique Patients                                                                      27,754
    Outpatient Visits                                                                    149,280
    Unique Employeesb                                                                    1,327
Type and Number of Operating Beds (December 2013):
    Hospital                                                                             111
    Community Living Center                                                              N/A
    MH                                                                                   19
Average Daily Census (January 2014):
    Hospital                                                                             77
    Community Living Center                                                              N/A
    MH                                                                                   10.8
Number of Community Based Outpatient Clinics                                              3
Location(s)/Station Number(s)                                                             Texarkana/667GA
                                                                                          Monroe/667GB
                                                                                          Longview/667GC
VISN Number                                                                               16




a
    All data is for FY 2014 through February 2014 except where noted.

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                     14
                                                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                         15
                                                       CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               16
                                                                                                  CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            17
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       March 18, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	      CAP Review of the Overton Brooks VA Medical Center,
                       Shreveport, LA

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. The South Central VA Health Care Network (VISN 16) has reviewed
          and concurs with the Combined Assessment Program (CAP) Review
          draft report submitted by the Overton Brooks VA Medical Center,
          Shreveport, LA.

       2. If you have questions or need additional information, please contact
          Reba T. Moore, VISN 16 Accreditation Specialist, at (601) 206-7022.




VA OIG Office of Healthcare Inspections                                                         18
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                       Appendix D
                      Interim Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       March 17, 2014

          From:        Interim Director, Overton Brooks VA Medical Center (667/00)

       Subject:        CAP Review of the Overton Brooks VA Medical Center,
                       Shreveport, LA

             To:       Director, South Central VA Health Care Network (10N16)

       1. The Overton Brooks VA Medical Center, Shreveport, LA, concurs with
          the findings in the OIG CAP Review of the Overton Brooks VA Medical
          Center, Shreveport, LA.

       2. If you have any questions or need additional information, please
          contact Myrtle Tate, Quality Management Consultant at
          (318) 990-5407.




VA OIG Office of Healthcare Inspections                                                         19
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
when conversions from observation bed status to acute admissions are over 30 percent,
observation criteria and utilization are reassessed.

Concur

Target date for completion: April 1, 2014

Facility response:

   	 Utilization Management (UM) Case Managers are using McKesson InterQual®
      observation criteria upon admission to observation. Upon conversion from
      observation to another level of care, McKesson InterQual® criteria are again
      utilized to determine the most appropriate level of care.
   	 UM Case Managers interact daily with the Interdisciplinary Team to facilitate
      patient flow from observation to the appropriate level of care and to identify and
      address barriers that impact the observation conversion rate.
   	 Observation utilization/trends, including cases that do not meet observation
      criteria, will be reported monthly to the Performance Improvement Committee
      and at least quarterly to the Medical Staff Executive Committee to ensure
      corrective action is implemented and sustained.
   	 The observation conversion rate went down from 51% in December 2013 to 30%
      in February 2014. We will continue to track and reassess appropriateness of
      observation status utilizing McKesson InterQual® Criteria.

Recommendation 2. We recommended that processes be strengthened to ensure that
continuing stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: July 1, 2014

Facility response: Actions to correct this finding include benchmarking with similar
facilities for strategies to improve continued stay review percentages and assessing the
workflow structure of the UM/Consult Management (CM) staff to identify other
opportunities to improve efficiencies in continued stay reviews.




VA OIG Office of Healthcare Inspections                                                         20
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Continued stay review data will be presented monthly to the Performance Improvement
Committee. The target of 75% will be sustained for a minimum of three consecutive
months. The Performance Improvement Committee will track and take corrective action
on an ongoing basis.

Recommendation 3. We recommended that the Blood Utilization Review Committee
include a clinical representative from Surgery Service.

Concur

Target date for completion: February 2014

Facility response: Dr. [name withheld], General Surgery was named to the Transfusion
Committee to represent Clinical Surgical Service. Dr. [name withheld] represents
Anesthesia. The Quality Management Department will monitor attendance of the Blood
Utilization Review Committee for six months to ensure participation by the Surgery
Service Representative. The Chair, Blood Utilization Committee is responsible for
monitoring meeting attendance on an ongoing basis.

Recommendation 4. We recommended that processes be strengthened to ensure that
corrective actions are initiated and/or consistently followed to resolution when data
analyses indicated problems or opportunities for improvement in the Performance
Improvement, Medical Executive, and Executive Safety Committees.

Concur

Target date for completion: May 15, 2014

Facility response: The Chief, Quality Management will provide training to the Chairs of
the Performance Improvement, Medical Staff, and Executive Safety Committee on how
to analyze data to identify opportunities for improvement. When data analyses indicate
problems or opportunities for improvement, the committee chair is responsible for
documentation and tracking in minutes.               The template for the minutes,
Policy OOQM-14, “Minutes of Services, Committee and Board Meetings” facilitates
tracking problems and opportunities until closure. The minutes will be audited monthly
by Quality Management for three consecutive months to ensure that problems are
tracked until closure and reported to the Performance Improvement Committee.
The chairs of the committees are responsible for ongoing compliance.

In addition, to strengthen the process for the Executive Safety Committee, the following
actions were implemented: a. a new charter was developed; b. the agenda format was
changed to allow for better tracking of items monthly; and, c. placed an emphasis with
plan managers on reporting and evaluating actions taken on performance goals.
Specifically, plan managers will need to use data to drive the resolutions and
performance improvement.




VA OIG Office of Healthcare Inspections                                                         21
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Recommendation 5. We recommended that processes be strengthened to ensure that
patient care areas and restrooms are clean and that compliance be monitored.

Concur

Target date for completion: April 7, 2014

Facility response: The Chief of Environmental Services (EMS) developed an action plan
which includes the following:

   	 Develop a daily inpatient room cleaning check off sheet.
   	 Develop a discharge cleaning log that will be distributed to all Housekeeping
      Supervisors.
   	 Develop a weekly cleaning schedule for all listed areas.
   	 Track the cleaning of housekeeping closets; storage, soiled utility, and
      medication rooms.
   	 Develop a well define training program for EMS staff (including supervisors).
   	 Conduct a staffing analysis, utilizing formats set up by VACO.

Findings from the Environment of Care (EOC) rounds related to cleanliness will be
tracked monthly in the Executive Safety Committee. The committee will take
appropriate action and ensure closure.

Recommendation 6. We recommended that processes be strengthened to ensure that
holes in the walls are repaired and that ongoing maintenance be monitored.

Concur

Target date for completion: April 17, 2014

Facility response: Engineering Service will review all areas for general maintenance
deficiencies and correct any deficiencies identified. Staff will be educated on the work
order process and reporting requirements. Education will be conducted during initial
reviews and by e-mail.

Engineering Service will perform ongoing in-house inspections, one area per week, and
issue work orders to correct any deficiencies identified.

General maintenance will be tracked on weekly EOC rounds and through in-house
inspections. General maintenance concerns will be discussed during Engineering staff
meetings and reported quarterly to the Executive Safety Committee.

Deficiencies greater than 14 days will be tracked using an electronic spreadsheet and
reported as part of regular EOC Reporting to the Executive Safety Committee.




VA OIG Office of Healthcare Inspections                                                         22
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


Recommendation 7. We recommended that processes be strengthened to ensure that
all locked MH unit staff and occasional locked MH unit workers receive training on how
to identify and correct environmental hazards, proper use of the MH EOC Checklist, and
VA’s National Center for Patient Safety study of suicide on psychiatric units and that
compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: All employees assigned to the locked MH unit as well as occasional
MH unit workers will be trained on: (a) the process to identify and correct environmental
hazards, (b) proper use of the MH EOC checklist, and (c) VA’s National Center for
Patient Safety study of suicide on psychiatric units. The MH EOC Checklist Training
(Talent Management System 1290945 for clinical staff and 1290950 for non-clinical
staff) will be added as annual training for staff who are assigned to the locked MH unit
and occasional MH unit workers. Service Chiefs are responsible for ensuring
documentation of the training in the Talent Management System (TMS). The Executive
Safety Committee will monitor annual training compliance.

Recommendation 8. We recommended that the annual staffing plan reassessment
process ensures that unit 6E’s and unit 9E’s unit-based expert panels include all
required members.

Concur

Target date for completion: May 30, 2014

Facility response: The Deputy Associate Director for Patient Care Services will ensure
that all required staff from 6E and 9E are added to the Unit Based Staffing Methodology
panel, have the appropriate training, and are active participants during the May 2014
staffing methodology training. Since the OIG visit, one Licensed Practical Nurse (LPN)
from 6E was added to the Unit Based Staffing Methodology panel; other staff will be
appointed. Nursing Service will review the staffing plan annually, ensuring that panels
are diverse in representation of each unit. The annual report will be submitted to the
Clinical Leadership Board.

Recommendation 9. We recommended that processes be strengthened to ensure that
Interprofessional Skin Integrity Committee minutes include data analysis.

Concur

Target date for completion: June 30, 2014

Facility response: The Wound Ostomy and Continence Nurse (WOCN) currently
aggregate the data for initial skin assessment and reassessment. The WOCN develops
and trends the data that is analyzed by the committee. The committee determines
appropriate corrective action. The Inter-professional Skin Integrity Committee minutes


VA OIG Office of Healthcare Inspections                                                         23
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA


will be audited by Quality Management staff for three months to verify the analysis of
data by the Committee. The report of the audit will be submitted to the Performance
Improvement Committee. The chair of the Inter-professional Skin Integrity Committee is
responsible for compliance.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, and risk scale score for all
patients with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility response: Real time chart reviews and physical assessment are conducted daily
by the WOCN on all patients with hospital and community acquired pressure ulcers.
This process was implemented February 26, 2014.                Chart reviews include
documentation of the location, stage, and risk scale score. Findings are reported daily
to Nurse Managers and Nursing Leadership. One-to-one education is provided to staff
Registered Nurses (RNs) when incorrect documentation is identified. Braden Scale
Training has been added to the facility’s educational system known as Talent
Management System (TMS) to reinforce appropriate assessment and documentation by
the nursing staff. We will review all pressure ulcer cases until 90% accuracy is
achieved on documentation of location, stage, and risk scale score.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility response: Pressure ulcer education has been added to the medical records
template to facilitate documentation. The WOCN conducts daily chart reviews on at-risk
patients as well as patients with pressure ulcer for appropriate documentation of
pressure ulcer education. Findings from the chart reviews on pressure ulcer education
will be reported to the Interprofessional Skin Committee and the Clinical Leadership
Board. A sample of 20 cases per month will be reviewed until 90% performance is
achieved for three consecutive months. The performance report will be submitted to the
Performance Improvement Committee.




VA OIG Office of Healthcare Inspections                                                         24
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Trina Rollins, MS, PA-C, Team Leader
Contributors            Gayle Karamanos, MS, PA-C
                        Cathleen King, MHA, CRRN
                        Larry Ross, MS
                        James Werner, Special Agent In Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         25
                                 CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Interim Director, Overton Brooks VA Medical Center (667/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Boozman, John Cornyn, Ted Cruz, Mary L. Landrieu, Mark L. Pryor,
 David Vitter
U.S. House of Representatives: Tom Cotton, John Fleming, Louie Gohmert,
 Vance McAllister


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         26
                                         CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA
                                                                                               Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.




VA OIG Office of Healthcare Inspections                                                                            27
                                         CAP Review of the Overton Brooks VA Medical Center, Shreveport, LA



5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
    November 2012.




VA OIG Office of Healthcare Inspections                                                                 28
